                   Limited Official Use




 Better Use of the National Account Profile During
  Returns Processing Can Eliminate Millions of
          Dollars in Erroneous Payments

                        May 2004

           Reference Number: 2004-40-098




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant
to Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10)
entitled, “Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it may only be
made available to those officials that have a need to know the
information contained within this report in the performance of their
official duties. This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure of this
report must be referred to the Disclosure Section within the TIGTA’s
Office of Chief Counsel.




                    Limited Official Use
                                    Limited Official Use
                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott Macfarlane, Director
Gary L. Young, Acting Director
Richard J. Calderon, Audit Manager
Areta G. Heard, Senior Auditor
John Kirschner, Senior Auditor
Glory Jampetero, Auditor




                                    Limited Official Use
